OIG Investigative Reports, Former Director of 1he Lone Pine Indian Education Center, and two (2) former bookkeepers of the Education Center, entered felony no contest pleas to misappropriation of public funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Press Release
For Immediate Distribution
December 22, 2009
INYO County California
INYO COUNTY DISTRICT AlTORNEY'S OFFICE
ARTHUR J. MAILLET
INYO COUNTY DISTRICT ATTORNEY
168 North Edwards Street
Independence, CA 93526-0604
760-878-0282
On December 2l. 2009, Gary Donnally, the former Director of the Lone Pine Indian
Education Center, and two (2) former bookkeepers of the Education Center, Mary Donnally and
Mary Jefferson, entered felony no contest pleas to misappropriation of public funds. In
addition, Sara Jefferson, former Assistant to the District of the Education Center, pled no
contest to misdemeanor grand theft by embezzlement and in a separate case she pled no
contest to writing checks with insufficient funds in her checking account. 5entencing will be
March 5, 2010. All defendants will be placed on probation and serve local time, and be required
to pay restitution. Even though the defendants pled no contest, the Superior Court is required
to find them guilty.
The District Attorney's 0ffice spent over a year conducting an investigation, with the
cooperation of the United States Department of Education and the California Department of
Education. The investigation was hampered by missing records and/or destroyed records.
Investigation from the District Attorney's Office had to initiate over ten (10) search warrants to
obtain and reconstruct the records of the Indian Education Center. The reconstructed records
showed the defendants misused the Indian Education Center's credit cards for their personal
use. 'They purchased household furnishings and clothing at well-known department stores such
as Lowe's, Home Depot, Nordstrom's, Sears. Costco, J.C. Penney's, Gottchalks, Dillard's, Best
Buy, Target. Wal-Mart. K-Mart, Robinson-May, Mervyn's and others. They also purchased other
services such as Direct TV, XM radio, Ver1zon, and used the internet to do online shopping.
Former District Attorney, Phil McDowell, was instrumental in putting the evidence
together for the preliminary hearing, which in the opinion of current District Attorney, Art
Maillet, resulted in the defendants entering no contest pleas. Unfortunately, State audits of the
Lone Pine Indian Education Center resulted in the closure of the Education Center, and it is
unlikely to reopen.
Printable view
Last Modified: 09/02/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov